             SEMIANNUAL
             REPORT

             October 1, 2012 –
             March 31, 2013




April 2013                   OIG-13-2SP
                                              United States Government Accountability Office




Memorandum
Date:      April 26, 2013

To:        Comptroller General Gene L. Dodaro

From:      Inspector General Adam Trzeciak

Subject: Semiannual Report—October 1, 2012, through March 31, 2013

I am submitting this report in accordance with Section 5 of the Government Accountability
Office Act of 2008 (GAO Act). 1 The report summarizes the activities of the Office of the
Inspector General (OIG) for the first reporting period of fiscal year 2013.

The act requires that you transmit the report to Congress within 30 days after receipt. Your
transmittal should also include any comments you consider appropriate.

I appreciate management’s support and want to thank GAO’s management and staff for
their cooperation during our reviews. The OIG’s team of dedicated professionals remains
committed to helping GAO improve the services it provides for American taxpayers. The
accomplishments reported in this letter are the direct result of their efforts.




1
31 U.S.C. § 705 (2012).



                                                              OIG-13-2SP Semiannual Report
INTRODUCTION


THE UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE


GAO is the audit, evaluation, and investigative arm of the Congress. It supports
congressional oversight by (1) auditing agency operations to determine whether federal
funds are being spent efficiently and effectively; (2) investigating allegations of illegal and
improper activities; (3) reporting on how well government programs and policies are meeting
their objectives; (4) performing policy analyses and outlining options for congressional
consideration; and (5) issuing legal decisions and opinions, such as bid protest rulings and
reports on agency rules.


THE OFFICE OF THE INSPECTOR GENERAL


Established as a statutory office by the GAO Act of 2008, 2 The OIG independently conducts
audits, evaluations, and other reviews of GAO programs and operations and makes
recommendations to promote the agency’s economy, efficiency, and effectiveness. We also
investigate allegations of fraud, waste, abuse, mismanagement or other serious problems in
GAO's programs and operations, including the possible violation of law or regulation.




2
31 U.S.C. § 705 (2012).



2                                                              OIG-13-2SP Semiannual Report
ACTIVITIES OF THE OFFICE OF THE INSPECTOR GENERAL



AUDITS AND EVALUATIONS


We issued a report evaluating GAO’s information security program and practices for fiscal
year 2012. (See the attachment for a report summary.) In addition, we began fieldwork to
assess the extent to which GAO has implemented an effective process for reviewing and
validating security clearance requirements and initiated an audit of GAO’s purchase card
program.


COMPLAINTS AND INVESTIGATIONS


The OIG hotline continues to be our primary source of complaints or information for
identifying suspected fraud and other serious problems, abuses, and deficiencies relating to
the administration of GAO’s programs and operations. As shown in table 1, we processed a
total of 212 complaints during the period.


Table 1: Summary of OIG Hotline Complaint Activities, October 1, 2012, through March 31, 2013

 Hotline complaints open at the start of the reporting period                                                            3
 New hotline complaints received this reporting period                                                                212
 Total hotline complaints                                                                                            215
 Complaints closed (referred to GAO, or external agency components)                                                      4
                                             a
 Complaints closed (referred to FraudNet )                                                                             11
 Complaints closed (insufficient information/no basis)                                                                171
 Complaints closed (no jurisdiction and referred to appropriate agency OIG or other                                    12
 law enforcement offices)
 Complaints closed (converted to investigations)                                                                       10
 Total hotline complaints open at the end of the reporting period                                                       7
Source: OIG.
a
 FraudNet is a government-wide hotline operated by GAO staff that receives complaints of fraud, waste, and abuse of federal
funds spent by other federal agencies.


Table 1 identifies 171 complaints that were closed due to insufficient information or no basis
upon which to open an investigation. Virtually all of these complains involved other federal
and state programs, not GAO programs and operations. We report them here because the
OIG expends considerable effort responding to the complaints and providing them with
contact information at other federal, state, and local agencies with appropriate jurisdiction.
Often, it is difficult to pinpoint the complainant’s concerns so we’ve determined to guide the
complainant rather than refer these matters ourselves.




3                                                                                  OIG-13-2SP Semiannual Report
As shown in table 2, we opened 10 new investigations and closed 11 investigations that
were opened in the current and prior periods. At the end of the reporting period, 16
investigations remained open.


Table 2: Summary of OIG Investigative Activity, October 1, 2012, through March 31, 2013

 Investigations open at the start of the reporting period                                              17
 New investigations initiated this reporting period                                                    10
 Total investigations                                                                                  27
 Investigations closed this reporting period                                                           11
 Total investigations open at the end of the reporting period                                          16
Source: OIG.




One of the investigations we closed involved a GAO employee who submitted travel
vouchers over a three-year period that allegedly contained false claims. The matter was
declined by the Department of Justice for criminal prosecution. It was then referred to the
GAO Human Capital Office for consideration of administrative action. We reported in our
previous Semiannual Report to Congress that the employee was suspended for a period of
60 days without pay. 3 In this reporting period, the employee agreed to reimburse GAO
$2,569 as restitution.


OTHER ACTIVITIES


In addition to our audit and investigative activities, we processed two Freedom of
Information Act requests in accordance with procedures set forth in 4 C.F.R. Part 81;
responded to a congressional request for information on open recommendations more than
1 year old; and issued the OIG’s annual audit plan. We also actively participated in the
Council of Inspectors General on Integrity and Efficiency activities.
GAO’s OIG is also the Inspector General for the United States Commission on Civil Rights
as directed by the Consolidated and Continuing Appropriations Act of 2012 (Pub. L. No.
112-55, 125 Stat. 552, 628). Those activities are reported to Congress under separate
cover.


GAO ACTIONS ON RECOMMENDATIONS MADE IN PRIOR OIG REPORTS


Timely resolution of outstanding audit recommendations continues to be a priority for both
our office and the agency. During the period, we closed 13 recommendations made in prior
reporting periods and GAO made substantive progress on the remaining three open



3
 GAO, Office of the Inspector General, Semiannual Report: April 1, 2012─September 30, 2012, OIG-13-1
(Washington, D.C.: Nov. 7, 2012).



4                                                                      OIG-13-2SP Semiannual Report
recommendations. These three recommendations, and their implementation status, are
presented below:

Table 3: GAO Actions on Recommendations Made in Prior OIG Reports, October 1, 2012, through March
31, 2013

 OIG audit and other reports          Recommendation                            Status of actions planned and
                                                                                taken by GAO in response to the
                                                                                recommendation
 Information Security: Evaluation of 1. Continue efforts to implement           Recommendation open
 GAO’s Information Security          additional requirements for the            GAO is in the final phase of
 Program and Practices for Fiscal    agency’s privacy program.                  requiring the establishment of a
 Year 2009, OIG-10-3 (Jan. 4, 2010)                                             privacy program for protecting the
                                                                                privacy of all personally identifiable
                                                                                information under the agency’s
                                                                                control or authority.
 Human Capital: Opportunities Exist   2. Update GAO’s recruitment,              Recommendation open
 to Strengthen Controls over          relocation, and retention incentive       GAO is in the final phase of revising
 Recruitment, Relocation, and         policy contained in GAO Order             its policy to strengthen justification
 Retention Incentives, OIG-12-5       2575.1 to                                 factors for requesting and approving
 (Aug. 28, 2012)                      a. strengthen justification factors for   a retention incentive. Among the
                                      the continuation of retention             updated justification factors is a
                                      incentive payments by requiring a         requirement to identify a timeline or
                                      timeline or strategy for eliminating,     strategy for minimizing, as
                                      as appropriate, the need for future       appropriate, the likelihood that a
                                      payments, and                             retention incentive would be paid to
                                      b. include a requirement for              an individual over an extended
                                      periodically reporting to GAO             period. Periodic reporting to agency
                                      management and executives on the          executives and management on the
                                      agency’s use of these incentives.         use of these incentives was also
                                                                                added as a policy requirement.

                                                                                Recommendation open
                                      3. Incorporate the use of
                                      recruitment, relocation, and              GAO continues efforts to update its
                                      retention incentives into GAO’s           strategic human capital plans to
                                      strategic human capital planning to       incorporate the use of recruitment,
                                      specify a plan for their use, the         relocation, and retention incentives
                                      results GAO expects to achieve,           and to identify specific measures for
                                      and the measures that will be used        assessing their effectiveness in
                                      to assess their effectiveness.            supporting human capital goals and
                                                                                objectives.
Source: OIG.




5                                                                               OIG-13-2SP Semiannual Report
Attachment

                   Summary of OIG Reports and GAO Actions
             Reports Issued October 1, 2012, through March 31, 2013



Information Security: Evaluation of GAO’s Program and Practices for Fiscal Year 2012, OIG-
13-2, (Feb. 13, 2013).

Findings: The Federal Information Security Management Act of 2002 (FISMA) requires that
many federal agencies establish an agency-wide information security management program
for the information and information systems that support the agency’s operations and
assets. GAO is not obligated by law to comply with FISMA or Executive Branch information
policies, but has adopted them to help ensure physical and information system security. Our
prior year evaluations have shown that GAO has established an overall information security
program that is generally consistent with the requirements of FISMA, OMB implementing
guidance, and standards and guidance issued by the National Institute of Standards and
Technology. For example, GAO has well defined operational and technical controls for
remote access to its network. Its telecommunications policy requires users to comply with
rules of behavior and user agreements that acknowledge their responsibility and
accountability. GAO also has procedures in place to report and disable lost or stolen devices
to prevent unauthorized access. In addition, GAO has continued its focus on closing prior-
year security-related recommendations.

Our fiscal year 2012 limited evaluation reinforced our prior conclusion. However, using 18
new FISMA reporting metrics for federal inspectors general, we identified areas for
improvement in the contingency planning process. We also identified resource challenges
that affect GAO’s ability to implement security upgrades and strategies identified by GAO
managers and the OIG.

Recommendations and GAO actions: To help strengthen GAO’s overall information security
program, we recommend that the Chief Information Officer take the following two actions: (1)
implement measures to increase the redundancy and availability of GAO mission-essential
applications and (2) develop and provide, for GAO senior management consideration, a
proposed strategy to ensure power redundancy for GAO servers and provide a long-term
alternate power supply. GAO concurred with these recommendations.




6                                                             OIG-13-2SP Semiannual Report
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                         Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                         Online at: https://OIG.alertline.com.


                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548


                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                              Please Print on Recycled Paper
